Loa
I

@OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19
STATE OF NORTH CAROLINA,
Petitioner,

v.
JAMES HAROLD COURTNEY, II,

Respondent.

AFFIDAVIT OF SERVICE

Legal Briefs

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 12th day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSHUA H. STEIN
Attorney General of North Carolina

Matthew W. Sawchak
Solicitor General
Counsel of Record

Ryan Y. Park
Deputy Solicitor General

Caryn Devins Strickland
Solicitor General Fellow

North Carolina Department of Justice
Post Office Box 629

Raleigh, NC 27602

(919) 716-6400
msawchak@ncdoj.gov

Subscribed and sworn to before me this 12th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

a iv E Clit Qdiow-h, Ghle

My Commission Expires Nov 24, 2020

 

 

Notary Public

Affiant

39050
Amanda Zimmer

Glenn Gerding

Office of the Appellate Defender
123 West Main Street, Suite 500
Durham, North Carolina 27701
(919) 354-7210
amanda.s.zimmer@nccourts.org
Glenn.Gerding@nccourts.org

Counsel for James Harold Courtney, ITI
